SIGAR                             Special Inspector General for
                                   Afghanistan Reconstruction




                                            SIGAR 14-41 Inspection Report


          Camp Monitor: Most Construction
          Appears to Have Met Contract
          Requirements, but It Is Unclear if Facility
          Is Being Used as Intended




                                                     MARCH

                                                     2014
SIGAR 14-41-IP/ANA Camp Monitor
March 12, 2014


General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Major General Dean J. Milner
Commanding General, NATO Training Mission-Afghanistan

Major General Kevin R. Wendel
Commanding General, Combined Security Transition Command-Afghanistan


This report discusses the results of SIGAR’s inspection of the Afghan National Army’s Camp
Monitor, located in Jawzjan province, in northern Afghanistan. A draft of this report
recommended that the Commander, U.S. Forces-Afghanistan (USFOR-A), direct the
Commanding General, Combined Security Transition Command-Afghanistan (CSTC-A), to
determine and report on the status of U.S. funds provided to the Afghan Ministry of Defense’s
Construction and Property Management Department for construction of the dining facility at
Camp Monitor.
In commenting on a draft of this report, the Commanding General, CSTC-A, did not concur with
our recommendation, on the basis that direct assistance provided to the Afghans for the
construction of Camp Monitor is intended to build ministerial capacity for infrastructure
development and that once “donated,” the Afghan government does not need to coordinate its
use with the U.S. Department of Defense. USFOR-A agreed with CSTC-A’s statements, but
added that it will continue to engage with the Afghans until the construction of the dining
facility is complete. USFOR-A also stated that it will provide status updates to SIGAR
accordingly. Based on USFOR-A’s commitment to work with SIGAR, our recommendation is
satisfied and we have deleted it from our final report.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
the Inspector General Act of 1978, as amended; and in accordance with the Quality Standards
for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity
and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
ABBREVIATIONS

       ANA       Afghan National Army

       CSTC-A    Combined Security Transition Command-Afghanistan

       NATO      North Atlantic Treaty Organization
       NTM-A     NATO Training Mission-Afghanistan

       USFOR-A   U.S. Forces-Afghanistan
The Afghan National Security Forces consist of the Afghan National Army (ANA) and the Afghan National Police.
As of April 2013, the Department of Defense had obligated $9.2 billion from the Afghanistan Security Forces
Fund for hundreds of ANA and Afghan National Police infrastructure projects. One of these ANA projects, Camp
Monitor, 1 was built in Jawzjan province, in northern Afghanistan bordering Turkmenistan (see figure 1). In April
2013, a Swedish Forward Operating Base, together with the adjacent Camp Monitor, was turned over to the
ANA for use by the 2nd Kandak, 2 1st Brigade, 209th Corps.
For this inspection, we assessed whether (1)
construction had been completed in
                                                       Figure 1 - Location of Camp Monitor in Afghanistan
accordance with contract requirements and
applicable construction standards, and (2)
the facilities were being used as intended
and maintained.
We conducted our work in Kabul,
Afghanistan, and at Camp Monitor from
March 2013 through February 2014, in
accordance with the Quality Standards for
Inspection and Evaluation, published by the
Council of the Inspectors General on
Integrity and Efficiency. The engineering
assessment was conducted by a
professional engineer in accordance with
the National Society of Professional
Engineers’ Code of Ethics for Engineers.
Appendix I contains a more detailed
discussion of our scope and methodology.               Source: SIGAR analysis.


BACKGROUND

On December 4, 2010, the Kabul Regional Contracting Center awarded the first of five contracts to construct
Camp Monitor for the ANA. The first contract, with a 120-day period of performance, was awarded to Fazlullah
Construction and Engineering Company (FCEC)/UI Projects Joint Venture for $830,000 to construct three open-
bay barracks. Subsequently, Kabul Regional Contracting Center awarded two additional contracts for three
more barracks, latrines, an administration building and force protection walls. The Regional Contracting
Command–North also awarded two contracts for guard towers, a firing range, additional force protection walls
as well as a dining facility; power plant; water well; leach field; 5,000 gallon fuel point; and connection of water,
sewer, and electrical systems. The combined value of the five contracts was $3.9 million. Appendix II lists the
five contracts for Camp Monitor and related information. Appendix III contains a site map of Camp Monitor.




1 Also referred to as the 3rd Kandak Monitor, Camp Monitor, Camp Monitor Forward Operating Base Sheberghan, ANA

Build at Camp Monitor, and Sheberghan Camp Monitor. For consistency within this report, we use the term “Camp
Monitor.”
2   An Afghan kandak, a battalion-sized unit, ranges from 352 to 800 personnel.


SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                    Page 1
CAMP MONITOR WAS GENERALLY CONSTRUCTED IN ACCORDANCE WITH
CONTRACT REQUIREMENTS, EXCEPT FOR THE DINING FACILITY

We conducted our Camp Monitor site inspection on
March 2, 2013, and found no major construction                     Photo 1 - Interior of Administration Building
flaws. For example, the administration building
appeared to be well constructed with no sign of
foundation cracks or non-functioning windows and
doors. All light fixtures and electrical outlets in the
administration building were installed, as well as
safety items such as smoke detectors and fire
extinguishers (see photo 1). The building containing
the water tanks was well constructed. All hot water
heaters for the showers and sinks were installed, and
the pipes were well insulated. Camp Monitor’s two
275 kilowatt generators appeared to be properly
installed. The generators were not operational at the
time of our site visit, so there was no electricity
available to test the lighting, heating, water, sewage             Source: SIGAR, March 2, 2013.
and other mechanical systems. As a result, we could
not fully assess the extent to which Camp Monitor met
some technical specifications of the contracts.

At the time of our inspection, Camp Monitor’s dining               Photo 2 - Footer for Abandoned Dining Facility
facility had not been completed. The dining facility
construction was limited to the concrete footings that
appeared to be of poor quality with uneven and
cracked concrete surfaces (see photo 2). The
contract’s scope for the dining facility called for a K-
Span 3 structure with concrete flooring. However, the
Regional Support Command-North representative
informed us that the contractor abandoned the dining
facility construction project, and the contract was
terminated. 4




                                                                   Source: SIGAR, March 2, 2013.




3 A K-Span building is a thin-gauge metal that is fabricated on site from coil sheets of steel. The sheet steel is continuously

fed into the K-Span roll-forming machine, which cuts the sheet steel into the desired length. The channel is then fed into
the second stage of the forming machine that curves it to the desired radius.
4 The Regional Support Command-North representative told us that, according to the contractor, it ran out of funds and

therefore abandoned the project.


SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                              Page 2
IT IS UNCLEAR IF CAMP MONITOR IS BEING USED AS INTENDED

At the time of our March 2, 2013, site inspection, Camp Monitor was unoccupied. All facilities—the barracks,
administration building, latrines, and firing ranges—were empty and unused. The Regional Support Command-
North representative told us that the camp could not be used due to the lack of a dining facility. The Regional
Support Command-North representative told us during our site visit that action was underway to find a new
contractor to complete the dining facility. The representative noted, however, that the command’s efforts to
find a contractor were being hampered by the fact that Camp Monitor was in a location that would soon be
inaccessible to U.S. government contracting officers and contracting officer representatives, due to the closure
of coalition bases in the area.
In November 2013, Combined Security Transition Command-Afghanistan (CSTC-A)—the U.S. Forces-Afghanistan
(USFOR-A) organization responsible for managing construction of Afghan National Security Force facilities in
Afghanistan—informed us that it had provided design and cost estimates to the Afghan Ministry of Defense’s
Construction and Property Management Department and provided $1.2 million in direct assistance 5 to the
Afghan government to complete construction of Camp Monitor. Although CSTC-A documents indicate that NATO
Training Mission-Afghanistan (NTM-A) would track the expenditure of this direct assistance and the project’s
progress, CSTC-A/NTM-A officials were unable to tell us the status of the dining facility, when and if ANA
personnel began occupying the camp, or the number of personnel currently occupying it. However, USFOR-A
officials told us in January 2014 that the Construction and Property Management Department engineers had
informed them that 60 percent of the dining facility was completed and that more than 700 ANA personnel
had been occupying the camp for nearly 6 months. The Afghan engineers added that food was being prepared
in a temporary kitchen and served to ANA personnel in tents.
Camp Monitor is located in an area that can no longer be reached by U.S. civilian employees because it sits
outside the so-called “oversight bubble.” 6 The “oversight bubbles” are defined by the ability of the U.S.
government to provide both adequate security and rapid emergency medical support to civilians traveling to
the area. As a result, SIGAR inspectors can no longer access this area and cannot independently verify that the
dining facility is being constructed in accordance with the contract requirements or whether the camp is being
used as intended.


CONCLUSION

The facilities we inspected at Camp Monitor appeared to be well constructed, but we could not fully assess the
camp’s lighting, heating, water, sewer, and other mechanical systems because the generators were not
operational at the time of our inspection in March 2013. The camp’s greatest shortcoming was the lack of a
dining facility, which prevented the ANA from occupying and using the facility. CSTC-A addressed the problem
by providing $1.2 million in direct assistance to the Afghan government to construct the dining facility, and
Afghan personnel in January 2014 told U.S. officials that the dining facility was under construction and 60
percent complete, with 700 ANA personnel using the base. However, we are concerned that CSTC-A officials
could not provide us with any oversight information regarding the status of the dining facility’s construction or
whether the ANA was currently occupying the camp. As a result, the U.S. government is relying solely on the
Afghan government to report on the spending of U.S.-provided funding, the progress of construction, and how
the camp is being used. In our view, oversight by CSTC-A or NTM-A is needed to ensure funds are being spent
properly, construction of the dining facility is completed in accordance with requirements, and the camp is
being used as intended.



5 Direct assistance is aid that a U.S. government agency implements through bilateral agreements with an Afghan

government entity.
6 U.S. military officials have told us that they will provide civilian access only to areas within a 1-hour round trip, using air

assets, of an advanced medical facility.


SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                                   Page 3
AGENCY COMMENTS

CSTC-A and USFOR-A provided written comments on a draft of this inspection report. Their comments were
incorporated into the final report, as appropriate. Their comments are reproduced in appendices IV and V,
respectively.
A draft of our report contained a recommendation to the Commander, USFOR-A, to direct the Commanding
General, CSTC-A, to determine and report on the status of U.S. funds provided to the Afghan government for
construction of the dining facility at Camp Monitor and that such reporting should continue until the facility is
completed. CSTC-A Commanding General did not concur with the recommendation, on the basis that direct
assistance provided to the Afghan government (identified as ‘Code 25105’ funds for construction projects) is
intended to build ministerial capacity in infrastructure development. As such, it is up to the Afghans to choose
and prioritize the projects that they want to undertake. CSTC-A further states that once funds are “donated,”
the Afghan government may use those funds without further coordination with the U.S. Department of Defense.
We do not question the Afghan government’s selection of the dining facility at Camp Monitor as a project to be
undertaken. We do, however, question CSTC-A’s position that it is not required to track and report on the status
of those funds as our recommendation stated. We believe that CSTC-A has the responsibility to provide
stewardship over funds provided to the Afghan government for construction of the dining facility and all other
projects funded with U.S. appropriated funds, whether they are provided directly or otherwise. Indeed, CSTC-A’s
comments show that its CJ8 Financial Management Oversight division has the capability to “disburse, monitor,
assess, and audit direct assistance funding.” Moreover, as noted in our report, documents provided by CSTC-A
indicate that one of the NATO Training Mission-Afghanistan’s responsibilities is to track the expenditure of this
direct assistance and the project’s progress.
USFOR-A agreed with CSTC-A's comments, but stated that it will continue to engage the Afghan government
until construction is completed and it will provide status updates to SIGAR. USFOR-A’s commitment to
monitoring the outcome of this project and providing us with further information satisfies our recommendation.
Therefore, we deleted this recommendation from our final report.




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                Page 4
APPENDIX I - SCOPE AND METHODOLOGY

This report provides SIGAR’s inspection results of the Afghan National Army’s Camp Monitor located in Jawzjan
province, in northern Afghanistan bordering Turkmenistan. We conducted our inspection on March 2, 2013,
under code SIGAR I-006L. However, our inspection was limited because the facility’s generators were not
operational and, therefore, were not producing electricity. Due to the lack of electricity, we could not test Camp
Monitor’s lighting, heating, water, sewage and other mechanical systems.
To determine whether (1) construction was completed in accordance with contract requirements and
applicable construction standards, and (2) the facilities were being used as intended and maintained, we
    •   reviewed relevant contract documents that were available to understand project requirements and
        contract administration;
    •   interviewed cognizant U.S. officials concerning the operation and maintenance of the facility; and
    •   conducted a physical inspection and photographed the project site to observe the current status,
        quality of construction, and determine the sustainability of the facilities.
SIGAR conducted its work in Kabul, Afghanistan, and at the Camp Monitor site from March 2013 through
February 2014, in accordance with the Quality Standards for Inspection and Evaluation, published by the
Council of the Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by a
professional engineer in accordance with the National Society of Professional Engineers’ Code of Ethics for
Engineers. We did not rely on computer-processed data in conducting this inspection. However, we considered
the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. SIGAR conducted this inspection under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended.




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                  Page 5
APPENDIX II - AFGHAN NATIONAL ARMY CAMP MONITOR SITE PLAN

Figure 2 - Site Plan for ANA Camp Monitor Showing the Swedish-Built and U.S./CPMD-Built Sides




                              Swedish-Built side of
                              ANA Camp Monitor



   Side of ANA Camp
   Monitor built with U.S.
   and CPMD funds




Source: NTM-A/CSTC-A Engineering with SIGAR labels added
Note: CPMD is the Afghan Ministry of Defense’s Construction and Property Management Department.




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                        Page 6
 APPENDIX III - FIVE CONTRACTS AWARDED FOR CAMP MONITOR

Table 1 - Five Contracts Awarded for Camp Monitor
   Contract         Date                             Period of     Construction        Contract      Amount
   Number          Awarded       Contractor         Performance    Requirement         Amount         Paid

W91B4M-10-R-       12/4/10    Fazlullah            120 days       Three open-bay        $830,000     $830,000
6514                          Construction and                    barracks
                              Engineering
                              Company
                              (FCEC)/UI Projects
                              Joint Venture

W91B4M-11-D-       3/27/11    ARAO-Fellgroup       120 days       Three open-bay       $1,113,924   $1,113,924
6501,                         Joint Venture                       barracks
Task Order
1001

W91B4M-11-D-       7/23/11    ARAO-Fellgroup       100 days       Three latrines,       $712,302     $712,302
6501,                         Joint Venture                       one
                                                                  administration
Task Order
                                                                  building
1002

W919QA-11-C-       9/16/11    24 Construction      45 days        Three guard           $487,828     $487,828
0088                          Company                             towers, firing
                                                                  range, force
                                                                  protection for the
                                                                  contractor

W919QA-12-C-       12/16/11   Northern Rock        100 days       Dining facility,      $787,293     $538,861
0001                          Construction                        power plant,
                              Company                             water well,
                                                                  connect water,
                                                                  sewer, and
                                                                  electrical, leach
                                                                  field, 5,000
                                                                  gallon fuel point

Totals                                                                                 $3,931,347   $3,682,915
Source: SIGAR analysis.




 SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                            Page 7
APPENDIX IV - COMMENTS FROM COMBINED SECURITY TRANSITION
COMMAND-AFGHANISTAN




                                                    See SIGAR
                                                    comment 1




SIGAR Inspection 14-41-IP/ANA Camp Monitor                      Page 8
                                             See SIGAR
                                             comment 2




SIGAR Inspection 14-41-IP/ANA Camp Monitor               Page 9
              16 Dec 13
                                                               UNCLASSif  '
                                                                 CSTC-A
                                                            INFORMATION PAPER

          SUBJECT: Camp Monitor construction projects

          PURPOSE: To document the status of construction plans at Camp Monitor

          Enclosures:
             • Tab A: CSTC-A-Provided Statement of Work
             • Tab B: CSTC-A-Provided Project Form
             • Tab C: USACE-Provided Building Plans
             • Tab D: Letter to Major General Ameree

          Introduction : FOB Monitor (Sheberghan) was a Swedish Coalition Force camp in Jowzjan Province, RC-N. In
          April of 2013, the base was turned over to the ANSF to be used by a 1/209 ANA Kandalt. The base, however,
          lacked certain infrastructure necessary to serve as an enduring ANSF base. Specifically, the base did not have
          a permanent Kitchen DFAC with mechanical, electrical, and plumbing systems or related furnishing, fixtures,
          and equipment NTM-NCSTC-A advised the Afghanistan Ministry of Defense (MoD) Construction and Property
          Management Department (CPMD) to fund such infrastructure using CPMD's own funds. Further, it has been
          reported that a 1/209 Kandak is currently living at the base.

          Discuss ion:
          CSTC-A Pro!ects at Camp Monitor: CSTC-A has identified four Coalition projects for me ANA proposed at
          Camp Monitor. Two of these projects were cancelled prior to being awarded. The two others, identified by
          contract numbers W91B4M-11-D-6501 TO 1 and W91B4M-11-D-6501 TO 2, were completed in 201 1. The
          contract amounts with S&A were $1 ,113,924 and $712,302, respectively. These two projects were executed by
          RSC North. Therefore, more information for these projects can be obtained from RSC North or RCC-E (or their
          successors). These four projects are summarized below:

         ll               Project N-ame        I El<:;~;a j         Amount           J        Contract#     j       Status    j
                                                                                                                Complete
              2/1/209 Kandak 30 Panel TO lfl    RSC North     $1, tl3,924 (awarded) W9184M-11-0-6S01 1001
                                                                                                                120111
                                                                                                                Complete
              2/1/209 Kandak 30 Panel TO 112    RSC North      $712,302 (awarded)    W9184M-ll-D·6S01
                                                                                                                (2011)
          2/1/209 Kandak, Shibirghan            AEN           $3,600,000 (planned)   (None)                     Not Awarded
          Air Unit Sherbergen                   AEN           $7,000,000 (planned)   (None)                     Not Awarded

         Direct Contribution Prolect Fund ing and Preparation: V\lhen FOB Monitor was turned over to the ANA, it did
         not have a permanent Kitchen DFAC. CSTC-A provided CPMD with a Statement of Work (Tab A) and project
         form (Tab B) in both English and Dari, as well as all necessary building specifications (Tab C) to compete the
         DFAC. A letter (Tab D) was drafted to Major General Engineer Ameree, Chief of CPMD, stating that it was
         intended for CPMD to be responsible for all work items associated with this OFAC project and that CPMD
         should execute the project using CPMD's existing funds, Code 25105.




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                                        Page 10
          ANA Camp Monitor

          According to Leonard Manning, a CSTC-A advisor. when CSTC-A made the decision in 201 2 to transfer the
          requirement, CPMD had more than enough Code 25105 construction funds remaining to complete the Kitchen
          DFAC project. CSTC-A received independent government estimates for the project and determined that if it
          were coalition-funded It would cost no more than $1.2 miHion. Since CPMD had enough funding available to
          complete the project for $1 .2 million, CSTC.A transferred the requirement (Tab D). CPMD reportedly received
          Its own estimates for less than $1 .2 million and has funds available for this project.

          Under the current system in Afghanistan, like the system in the United States, a budget is prepared that
          requires a prioritization of the country's needs. Like in the United States, the Afghans may face difficult
          decisions when prioritizing a list of needs that may exceed the available budget. As a result, there are some
          projects or facilities that receive less funding than would be desired if the budget were unlimited. The CSTC.A
          ministerial advisors have been helping the Afghans through this process by leading them through a series of
          questions: 1/Vhat do they have?; 1/Vhat do they need?; and What can they afford? Having to work through this
          difficult process is an important step for the Afghans to learn to be self sufficient and to 1ot put discretionary
          •wants• in front of required "needs." By transferring the Kitchen DFAC project, GIRoA can use this Situation as
          an opportunity to prioritize the needs of the transferred facilities at Camp Monitor to the other MoD needs that
          could be satisfied under Code 25105 in order to create a list of priorities that can receive funding. Such skills
          are important for a nascent country to develop. and CSTC.A desires to assist with that development

          Direct Contribution Protect Status; As of December of 2013, CSTC-A has been informed that a contractor is
          currently mobilized at FOB Monitor and that construction is well underway. The 1/209 ANA Kandak is
          occupying the base during the DFAC construction.

          Conclusion: The former Swedish camp FOB Monitor was transferred to the ANA while lacking an enduring
          Kitchen DFAC. CSTC·A provided CPMD with building plans, a statement of work, and a project form to assist
          in completing the Kitchen DFAC project. CPMD has sufficient FY13 funds to complete the project. As of
          December 2013, it has been reported that a contractor was mobilized on site and that c :mstruction is well
          underway.




          APPROVED BY COL WILLIAM H. GRAHAM1 ; / ' , '/           I
                                                         PREPARED BY LCDFtRE.ruS C, W08!.EY
          DIRECTOR, CSTC·A CJ-ENG   .____. ~ U. fl __.l..l             d./'Z'~~/
                                                          UNCLASSIF/EO                ""


                                                                  2




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                                     Page 11
                                              NATO TRAINING MISSION -AFGHANISTAN
                                       COMBINED SECURITY TRANSI TION COMMAND- AFGHANISTAN
                                                       KASUL, AFGHANISTAN
                                                          APOAE0935e
              R(Pl.Y 1'0
              ATTEtiTION 01'·
              NTM-A ENG Serial Number:                                                                May 15, 2013
              Serial Letter# 1391-096

              Major General Engineer Amen.-e
              Chief of Construction and Property Management Department
              Ministry of Defense
              Kabul. Afghanistan

              SUBJI::CT: Tum Over of the Sheberghan/Camp Monitor Dining l'acility (DI'AC) construction as a Direct
              Contribution Project

              Rt.-spectcd Major Gene.ral Ameree:

              I . NTM-A and CSTC-A have determined that it is in the best interests of the Afghan National
                   Government, the Atghan National Army, and the Coalition Porce$ that the construction of the Camp
                   Monitor Dining Facility (DFAC) be transferred to Ministry of Defunse (MoD) ConstnJCtion and
                   Property Managcmenl Department (CI'M f)) for design. contracting. award, construe non. and
                   closeout.

              2. CPMD shall develop a complete scope of work (SoW) as well as all designs tor rhi~ facility. All
                 designs developed by CPMD will be Site Adapt.

              3. lt is expected that CPMD. through its selected construction contractor will build and he responsible
                 for all work items associated with thisproject.

              4. Request CPMD execute this project from existing funds in Code 25105 as stated in the TM-
                 AJCSTC·A Comitment Letter

              S. If you have any questions, please contact Leonard M. Manning at• • • • • or email




                                                                       LIAM II. GRAHAM
                                                                   COL (OF-5). EN, USA
                                                                   Engineering Director
                                                                   NTM-NCSTC-A




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                              Page 12
                                SIGAR’s Response to Comments from CSTC-A


1. CSTC-A stated that direct assistance provided to the Afghan government (identified as ‘Code 25105’ funds
   for construction projects) is intended to build ministerial capacity in infrastructure development. As such, it
   is up to the Afghans to choose and prioritize the projects that could be properly funded under that code.
   CSTC-A also stated that once funds are “donated” to the Afghan government, it may use those funds
   without further coordination with the U.S. Department of Defense.

    We do not question the Afghan government’s selection of the dining facility at Camp Monitor as a project
    to be funded under Code 25105. We do, however, question CSTC-A’s position that it is not required to
    track and report on the status of those funds as our recommendation states. We believe that CSTC-A has
    the responsibility to provide stewardship over funds provided to the Afghan government for construction of
    the dining facility and all other projects funded with U.S. appropriated funds, whether they be provided
    directly or otherwise. Indeed, CSTC-A’s comments show that its CJ8 Financial Management Oversight
    division has the capability to “disburse, monitor, assess, and audit direct assistance funding.”


2. Although we disagree with CSTC-A’s assertions, we have deleted this recommendation from our final report
   because USFOR-A has committed to track the status of this project and provide updates to SIGAR.




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                Page 13
APPENDIX V - COMMENTS FROM UNITED STATES FORCES-AFGHANISTAN



                                                   HEADQUARTERS
                                          UNITED STATES FORCES-AFGHANISTAN
                                                 KABUL, AFGHANISTAN
                                                     APOAE 09354



              USFOR-A DCDR-S                                                                  March 2014


              MEMORANDUM THRU United States Central Command (CCIG), MacDill Air Force Base, FL
              33621

              FOR Special Inspector General for Afghanistan Reconstruction (SIGAR), 2530 Crystal Drive,
              Arlington, VA 22202-3940

              SUBJECT: United States Forces-Afghanistan (USFOR-A) Response to the SIGAR Draft Report
              on "Camp Monitor: Most Construction Appears to Have Met Contract Requirements, but It Is
              Unclear iftbe Facility Is Being Used as Intended," February 2014

              I. References:
                 a. SIGAR Draft Report, February 2014

                b. Combined Security Transition Command-Afghanistan (CSTC-A) memo to SIGAR Draft
              Report, dated 26 February 2014
              2. I have reviewed tbe SIGAR draft report (I-006L) and concur with CSTC-A's response to tbe
              subject draft report and provide the following additional comments.

              3. USFOR-A has detennined tbat construction of the dining facility is on-going, by an Afghan-
              sourced contractor and in accordance with tbe 1/209 Afghanistan National Anny (ANA)
              Kandak's needs. Photographs received from local Afghan engineers on 25 February 2014 show
              substantial progress, estimated at 75-80% completion. This progress indicates the Government
              of the Islamic Republic of Afghanistan's development in tbe areas of self-sufficiency and
              requirements prioritization. However, in our commitment to good stewardship, USFOR-A will
              continue to engage our Afghan partners through building completion, and will provide updates to
              SIGAR accordingly.
              4. Point of Contact for this action is COL Thurinton Harvell at DSN • • • • • or via
              e-mrulat lllllllllllllllllllillllllllll

              Encls:
              I. CSTC-A Response, 26 Feb 2014
                                                             r.4~
                                                            ~;neral,    U.S. Anny
              2. SIGAR Draft Report, Feb 2014               Deputy Commander, Support
              3. Photographs ofDFAC Construction                United States Forces-Afghanistan




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                                      Page 14
                              SIGAR’s Response to Comments from USFOR-A


1. Based on USFOR-A’s commitment to monitoring the outcome of this project and providing us with further
   information, we have deleted the recommendation from our final report.




SIGAR Inspection 14-41-IP/ANA Camp Monitor                                                        Page 15
APPENDIX VI - ACKNOWLEDGMENTS
Scott Harmon, Senior Inspections Manager

Brian Flynn, Senior Audit Manager

Angelina Johnston, Senior Auditor

William Shimp, Senior Auditor

Ron Snyder, P.E., Engineer




SIGAR Inspection 14-41-IP/ANA Camp Monitor   Page 16
                                  This inspection report was conducted
                                    under project code SIGAR-I-006L




SIGAR Inspection 14-41-IP/ANA Camp Monitor                               Page 17
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
